January 11, 2002

RUDOLPH K. UMSCHEID
VICE PRESIDENT, FACILITIES

DONNA M. PEAK
VICE PRESIDENT, FINANCE, CONTROLLER

STEPHEN L. JOHNSON
MANAGER, SALT LAKE CITY DISTRICT

KEITH E. LASHIER
MANAGER, DENVER FACILITIES SERVICE OFFICE

SUBJECT:	 Audit Report – Follow-up Audit of Salt Lake City District 2002 Winter
          Olympics Plan (Report Number CA-AR-02-001)

This report presents the results of our follow-up review of the Salt Lake City District
2002 Winter Olympics Plan (Project Number 01NU002FA000). This audit responds to a
request from headquarters Facilities management to determine whether
recommendations from our June 30, 2000, report, Audit of the Salt Lake City District
2002 Winter Olympic Plan (Report Number FA-AR-00-002) were implemented and to
determine the potential for completion of projects as scheduled for the Olympic Games
beginning February 8, 2002.

The audit revealed that prior audit recommendations were implemented and the Salt
Lake City District should complete the 23 Olympic projects before games begin on
February 8, 2002. We found some concerns with three projects (South Salt Lake City,
Pleasant Grove, and Foothill) where renovations have not begun or where completion
dates may be close to February 2002.

We recommended Postal Service management monitor and take appropriate action
where feasible to ensure that the Olympic projects in question are completed prior to
February 8, 2002. We also recommended that Postal Service management review the
Decision Analysis Report modification approval process to determine if the approval
timeframes can be reduced. Management agreed with the recommendation for
monitoring but stated that the timeframes for reviewing and approving this project had
already been assessed, and the process is appropriate and should not be changed.
Management’s comments are responsive to our findings and recommendations.
Management’s comments and our evaluation of these comments are included in this
report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, please contact Lorie Siewert, director, Contract and Facilities,
at (651) 855-5856 or me at (703) 248-2300.



John M. Seeba
Assistant Inspector General
 for Financial Management

Attachment

cc: 	John A. Rapp
     Richard J. Strasser, Jr.
     John R. Gunnels
Follow-up Audit of Salt Lake City District                            CA-AR-02-001
2002 Winter Olympic Plan




                                      TABLE OF CONTENTS 

Executive Summary
                                                       i

Part I

Introduction                                                             1


  Background                                                             1

  Objectives, Scope, and Methodology                                     1

  Prior Audit Coverage                                                   2


Part II

Audit Results

  Prior Recommendations Implemented                                      3


  Projects on Track for Completion                                       6

  Recommendations                                                        7
  Management’s Comments                                                  7

  Evaluation of Management’s Comments                                    7


  General Observations                                                   8


  Appendix. Management’s Comments                                        9





                                             Restricted Information
Follow-up Audit of Salt Lake City District                                          CA-AR-02-001
 2002 Winter Olympics Plan


                                     EXECUTIVE SUMMARY
Introduction                This audit report presents the results of our follow-up review of
                            the Salt Lake City District 2002 Winter Olympics Plan (Project
                            Number 01NU002FA000). Headquarters Facilities management
                            requested this review. The objectives of the audit were to
                            (1) determine whether recommendations from our June 30, 2000,
                            report, Audit of the Salt Lake City District 2002 Winter Olympic
                            Plan (Report Number FA-AR-00-002), were implemented, and
                            (2) determine the potential for completion of projects as
                            scheduled for the Olympic Games beginning February 8, 2002.

Results in Brief            Our audit determined prior audit recommendations were
                            implemented. We found management had developed written
                            criteria for site selections, prepared accurate scopes of work,
                            developed cost estimates, and obtained proper approvals on
                            Decision Analysis Report modifications.

                            Our audit also determined the Salt Lake City District should
                            complete the 23 Olympic projects before the Olympics begin on
                            February 8, 2002. As of August 2001, we found eight projects
                            were completed, nine were under construction, and six were not
                            under construction. We have some concerns with three projects
                            (South Salt Lake City, Pleasant Grove, and Foothill) for which
                            contracts have yet to be awarded or completion dates are close
                            to February 2002.

Summary of      We recommended the managers, Salt Lake City District, and the
Recommendations Denver Facilities Service Office, monitor and take appropriate
                action where feasible to ensure that the Olympic projects in
                question are completed prior to February 8, 2002. We also
                recommended the vice president, Facilities, and vice president,
                Finance, controller, review the Decision Analysis Report
                modification approval process to determine if the approval
                timeframe can be reduced.

Summary of                  Management agreed with the recommendation for monitoring but
Management’s                stated that the timeframes for reviewing and approving this
Comments                    project had been assessed, and that the Decision Analysis
                            Report modification approval process is appropriate and should
                            not be changed. However, management commented that the
                            number of modifications could have been reduced with additional
                            planning.



                                                        i
                                             Restricted Information
Follow-up Audit of Salt Lake City District                                            CA-AR-02-001
 2002 Winter Olympics Plan



                            Management’s comments, in their entirety, are included in the
                            appendix of this report.

Overall Evaluation          Management’s actions, planned or taken, are responsive and
of Management’s             address the issues identified in this report; therefore, no further
Comments                    action is required.




                                                        ii
                                             Restricted Information
Follow-up Audit of Salt Lake City District                                                             CA-AR-02-001
 2002 Winter Olympics Plan


                                             INTRODUCTION
Background                         On June 16, 1995, Salt Lake City was awarded the
                                   2002 Winter Olympic Games. The Olympic Games will
                                   begin on February 8, 2002. The Postal Service decided to
                                   renovate selected post offices before visitors arrived in Salt
                                   Lake City for the Olympic Games.

                                  To begin the facilities improvement process, the Salt Lake
                                  City District began developing a Decision Analysis Report in
                                  the spring of 1997.1 This Decision Analysis Report included
                                  plans to expand one facility and upgrade 23 other facilities
                                  at an estimated cost of $4.9 million. The Western Area
                                  approved the Decision Analysis Report for $4.9 million on
                                  May 7, 1999. On August 29, 2000, the chief operating
                                  officer and executive vice president approved a Decision
                                  Analysis Report modification that eliminated one facility and
                                  provided $1,033,031 in additional funding to five facilities.
                                  This increased the total project cost to $5,968,117.

Objectives, Scope,                The objectives of the audit were to (1) determine whether
and Methodology                   recommendations from our prior audit were implemented,
                                  and (2) determine the potential for completion of projects as
                                  scheduled for the February 2002 Olympics.

                                  To determine if prior recommendations were implemented,
                                  we reviewed funding, contracting, and project
                                  management documents for 23 Salt Lake City projects
                                  included within the Olympic Decision Analysis Report. To
                                  determine the potential for completion of projects as
                                  scheduled, we visited 14 of 23 Olympic project facilities,
                                  reviewed contractor payment documents, reviewed
                                  pending contract modifications interviewed contracting
                                  officers’ representatives, and contract personnel. In all
                                  instances, we reviewed applicable Postal Service
                                  guidance.

                                  We conducted the audit from June 2001 through
                                  January 2002 in accordance with generally accepted
                                  government auditing standards, and included such tests of
                                  internal controls as were considered necessary under the
                                  circumstances. We discussed our conclusions and

1
 A Decision Analysis Report is prepared by the requesting organization to justify a project investment and to assist
approval authorities in making decisions concerning the use of Postal Service funds.


                                                          1
                                               Restricted Information
Follow-up Audit of Salt Lake City District                                          CA-AR-02-001
 2002 Winter Olympics Plan


                                 observations with appropriate management officials and
                                 included their comments, where appropriate.

Prior Audit Coverage 	 Our March 31, 1999, report, Review of the Atlanta Olympic
                       Facility Improvement Plan (Report Number FA-AR-99-001),
                       disclosed that Postal Service management needed to
                       improve the development and execution of the Atlanta
                       Olympic Plan. Specifically, Postal Service management
                       needed to ensure appropriate levels of construction
                       approval and oversight, adherence to construction policies,
                       and better use of indefinite quantity contracts. Management
                       agreed and took action in response to all significant
                       recommendations.

                                 Based on the results of the review of the Atlanta Olympics
                                 facilities plan, Postal Service management requested we
                                 review the Western Area district facilities portion of the
                                 2002 Winter Olympics Plan. Our June 30, 2000, report,
                                 Audit of the Salt Lake City District 2002 Winter Olympic Plan
                                 (Report Number FA-AR-00-002), disclosed the costs for
                                 work to be performed at 24 facilities were not accurately
                                 represented in the project funding document. Postal
                                 Service management agreed with our recommendations to
                                 accurately report the facilities work needed and related
                                 costs.




                                                        2
                                             Restricted Information
Follow-up Audit of Salt Lake City District                                           CA-AR-02-001
 2002 Winter Olympics Plan


                                             AUDIT RESULTS
Prior                            The Salt Lake City District adequately implemented
Recommendations                  recommendations from our June 30, 2000, report. Prior
Implemented                      recommendations to district management with actions taken
                                 are as follows:

                                 1. Document the criteria used to select Olympic facilities.

                                 Written criteria for the selection of Olympic site renovations
                                 was prepared and included within the first modification of the
                                 Decision Analysis Report. We also noted that the selection
                                 criteria were appropriately applied. Headquarters approved
                                 the first modification on August 29, 2000.

                                 2. Prepare accurate scopes of work for each Olympic facility.

                                 Accurate scopes of work for each Olympic facility were
                                 prepared. The scopes of work described the work as
                                 precisely as practicable and in enough detail to allow a best
                                 value decision.

                                 3. Recalculate the estimated cost for each facility and the
                                    Olympic facilities project as a whole based on detailed
                                    scopes of work.

                                 The Denver Facilities Service Office revised certain cost
                                 estimates as a result of changing five facilities into postal
                                 retail stores. On August 29, 2000, it obtained Decision
                                 Analysis Report modification, one that increased the total
                                 Olympic project cost from $4.9 to $5.9 million. In
                                 December 2000, the Denver Facilities Service Office
                                 completed a revised cost estimate for each facility in the
                                 Olympics project for a total of $6.3 million. However,
                                 management did not use this $6.3 million estimate because
                                 they believed additional funding would not be needed. Based
                                 on our analysis of the expenditures to date, we believe the
                                 $5.9 million estimate is sufficient.




                                                        3
                                             Restricted Information
Follow-up Audit of Salt Lake City District                                            CA-AR-02-001
 2002 Winter Olympics Plan



                                 4. Prepare a Decision Analysis Report modification based
                                    upon revised scopes of work and cost estimates for
                                    submission to appropriate levels of Postal Service
                                    management.

                                 The Western Area vice president appropriately approved the
                                 original Decision Analysis Report for $4,945,086 on May 7,
                                 1999. The chief operating officer then appropriately
                                 approved the first Decision Analysis Report modification that
                                 increased funding to $5,968,117. The chief operating officer
                                 also approved the second through the seventh modifications.
                                 These modifications moved funds between projects and
                                 expense items and did not change the total approved amount
                                 for the Olympics projects of $5,968,117.

                                 The appropriate level (chief operating officer) of Postal
                                 Service management approved Decision Analysis Report
                                 modifications. Headquarters decided each project must
                                 stand on its own merit and would become part of one unitary
                                 plan that includes all 23 projects. Therefore, modifications
                                 were needed when projects were individually over or under
                                 approved amounts even though the total approved amount
                                 remained the same because it represented a change in the
                                 scope of investment.

                                 5. Prepare a formal purchase plan.

                                 A formal purchase plan was developed. In addition,
                                 individual purchase plans for 20 of 23 projects were prepared
                                 which documented the purchasing method, type of contract,
                                 cost estimate, and schedule to complete. The three projects
                                 without plans were completed during the timeframe of our
                                 previous audit and, therefore, preparation of a purchase plan
                                 would have been after the fact.

                                 6. Reconcile entries in the Facilities Management System for
                                    Windows with the Olympic project related costs as
                                    recorded in the Postal Service financial report.

                                 Because Facilities Management System for Windows data
                                 automatically feeds the Postal Service financial report, district
                                 Finance personnel appropriately felt the recommendation
                                 was to verify the accuracy of data with the Facilities


                                                        4
                                             Restricted Information
Follow-up Audit of Salt Lake City District                                        CA-AR-02-001
 2002 Winter Olympics Plan


                                 Management System. On July 18, 2001, district personnel
                                 completed the first reconciliation between the Facilities
                                 Management System and source documents within the
                                 project files using a sampling method. The reconciliation
                                 revealed no significant difference. District personnel now
                                 plan to complete this reconciliation each accounting period.
                                 We also completed a sample reconciliation of data within the
                                 Facilities Management System with source documents
                                 maintained in project files and found no differences.




                                                        5
                                             Restricted Information
Follow-up Audit of Salt Lake City District                                          CA-AR-02-001
 2002 Winter Olympics Plan



Projects on Track for            The Salt Lake City District should complete the 23 Olympic
Completion                       projects before games begin on February 8, 2002. While
                                 conducting site visits during August 2001, we found
                                 eight projects are complete, nine are under construction, and
                                 six are not under construction. Eight of nine projects under
                                 construction are more than 50 percent complete and should
                                 be completed prior to December 31, 2001. Overall, we are
                                 concerned with three projects (South Salt Lake City, Pleasant
                                 Grove, and Foothill) for which renovations have not begun or
                                 completion dates are close to February 2002.

                                 Renovations have not begun at South Salt Lake City and
                                 Pleasant Grove as of November 1, 2001. These two projects
                                 needed Decision Analysis Report modifications requiring
                                 headquarters approval. Headquarters required over a month
                                 to approve these modifications, which delayed the district’s
                                 ability to begin work on these projects. The district has
                                 awarded the South Salt Lake City contract but only recently
                                 authorized the contractor to begin work. The district has not
                                 awarded a contract for Pleasant Grove. If these two projects
                                 are not monitored closely, renovations may not be completed
                                 prior to the Olympics beginning on February 8, 2002.

                                 The Foothill project is an estimated $1.9 million expansion
                                 and renovation project. As of August 2001, the project was
                                 only 51 percent complete. It has experienced many delays
                                 since construction started. The contractor has received
                                 contract relief for 127-days since the project began in
                                 September 2000 due in part to asbestos removal and
                                 modification approval. In addition, the contractor replaced its
                                 project manager in August 2001. The project was scheduled
                                 for completion on October 28, 2001, but as of November 1,
                                 2001, the project was not complete. The Salt Lake City
                                 administrative services manager believes construction will not
                                 be completed until January 2002. If the contractor finds new
                                 unforeseen site conditions or incurs delays because of new
                                 on-site project management, the project may not be complete
                                 by February 8, 2002.




                                                        6
                                             Restricted Information
Follow-up Audit of Salt Lake City District                                           CA-AR-02-001
 2002 Winter Olympics Plan



Recommendation	                   We recommend the manager, Salt Lake City District, and the
                                  manager, Denver Facilities Service Office:

                                      1. 	 Monitor and take appropriate action where feasible to
                                           ensure that the Olympic projects in question are
                                           completed prior to February 8, 2002.

Management’s 	                    Management agreed with the recommendation for monitoring
Comments 	                        and stated they would assist the area and district, as
                                  appropriate, to ensure the remaining projects are completed
                                  prior to the start of the 2002 Winter Olympics.

Recommendation 	                 We recommend the vice president, Facilities, in conjunction
                                 with the vice president, Finance, controller:

                                      2. 	 Review the Decision Analysis Report modification
                                           approval process to determine if the approval
                                           timeframes can be reduced.

Management’s                     Management stated that they had already reviewed the
Comments                         timeframes for reviewing and approving the modifications for
                                 this project, and concluded the Decision Analysis Report
                                 modification approval process is appropriate and should not
                                 be changed. Management acknowledged that the project
                                 sponsor should have included sufficient time in the project
                                 schedule for the modifications’ review and approval. Also, in
                                 retrospect, the number of modifications could have been
                                 reduced had the contingency for all the projects been
                                 increased or if the project sponsor anticipated the need for
                                 additional funding and submitted the modifications prior to a
                                 critical point in the project schedules.

Evaluation of                    Management’s comments are responsive to our concerns. 

Management’s

Comments 





                                                        7
                                             Restricted Information
Follow-up Audit of Salt Lake City District                                             CA-AR-02-001
 2002 Winter Olympics Plan




General Observations 	 We found the district awarded two contracts at higher than
                       headquarters approved amounts within the Decision Analysis
                       Report. Postal Service regulations require contracting officers
                       to ensure sufficient funding is available before taking a
                       contractual action. Specifically, the district awarded the
                       Cottonwood contract on September 22, 2000, for $125,500,
                       while the approved amount was only $114,969. They also
                       awarded the Provo contract on September 21, 2000, for
                       $72,708, while the approved amount was only $64,264.
                       Western Area officials approved additional funds for Provo on
                       August 24, 2000. Therefore, the district had Western Area but
                       not headquarters approval for additional funds. District
                       personnel were unaware that transfers of funds between
                       projects required headquarters approval. Postal Service
                       management took appropriate corrective action prior to our
                       audit. We found no additional instances of this occurring.

                                 We also found 11 instances totaling $45,379 where project
                                 managers ordered contractors to perform work without proper
                                 authorization. Although the cost of this work was within
                                 approved Decision Analysis Report amounts, project
                                 managers are not authorized to commit funds. Upon finding
                                 out project managers were giving verbal change orders to
                                 avoid construction delays, a district contracting officer sent
                                 memorandums to contractors and to district project managers
                                 on June 21, 2001, reminding them that verbal approval must
                                 come from contracting officers.

                                 We observed that the Salt Lake City District successfully used
                                 a solicitation and competitive bidding process from a
                                 prequalified list of contractors on 22 of 23 projects. In addition,
                                 the district used consistent lobby designs for each facility to
                                 allow increased efficiency in design and construction. This is
                                 in keeping with the Postal Service goal of maintaining an
                                 image in retail facilities.




                                                        8
                                             Restricted Information
Follow-up Audit of Salt Lake City District                            CA-AR-02-001
 2002 Winter Olympics Plan


                      APPENDIX. MANAGEMENT’S COMMENTS




                                                        9

                                             Restricted Information
Follow-up Audit of Salt Lake City District                            CA-AR-02-001
 2002 Winter Olympics Plan




                                                       10 

                                             Restricted Information
